                                                                Issue Date
                                                                         April 5, 2012
                                                                 
                                                                Audit Report Number
                                                                             2012-KC-1003




TO:        Frances M. Cleary, Director, Kansas City Office of Public Housing, 7APH

           //signed//
FROM:      Ron Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The Topeka, KS, Housing Authority Did Not Always Document Its Procurement
           Actions and Did Not Accurately Report on Its Recovery Act Funds


                                   HIGHLIGHTS

 What We Audited and Why

             We reviewed the Topeka, KS, Public Housing Authority. We selected the
             Authority for review because it spent a large amount of American Recovery and
             Reinvestment Act of 2009 funds. Our objectives were to determine whether the
             Authority expended Recovery Act grant funds in accordance with Recovery Act
             requirements and applicable HUD rules, met procurement requirements in
             selecting the developers for its mixed-finance projects, and reported Recovery Act
             grant information in Recovery.gov accurately and completely.


 What We Found


             The Authority generally obligated and expended its Recovery Act funds in
             accordance with Recovery Act rules and regulations. However, it did not
             adequately document its selection of the Tennessee Town II developer. In
             addition, it did not accurately or completely report Recovery Act grant
             information in Recovery.gov.




                                             1
What We Recommend


           We recommend that the Director of HUD’s Kansas City Office of Public Housing
           ensure that the Authority’s staff receives procurement training and the Authority
           develops and implements detailed operational procedures to strengthen existing
           procurement policies. We also recommend that the Director work with the
           Authority to update its Recovery Act Web site, as appropriate, to reflect the
           correct program information.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response


           We provided the draft report to the Authority on March 6, 2012 and requested a
           response by March 13, 2012. The Authority notified us on March 15, 2012 that it
           agreed with the findings and chose not to submit written comments.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The Authority Did Not Adequately Document Its Selection of the   5
      Tennessee Town II Developer

      Finding 2: The Authority Did Not Accurately or Completely Report Recovery   7
      Act Grant Information in Federal Reporting.gov

Scope and Methodology                                                             10

Internal Controls                                                                 12




                                            3
                      BACKGROUND AND OBJECTIVES

The Topeka, KS, Housing Authority began operations in 2001 to provide decent, safe, and
sanitary housing to low-income, elderly, and disabled people in Topeka, KS. The Authority is
governed by a five-member board of commissioners, and an executive director manages its daily
operations. The Authority’s administrative offices are located at 2010 Southeast California
Avenue, Topeka, KS.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009. This legislation included a $4 billion appropriation of capital funds to carry out capital
and management activities for public housing agencies. The Recovery Act requires that $3
billion of these funds be distributed as formula grants and the remaining $1 billion be distributed
through a competitive grant process. The Recovery Act imposed additional reporting
requirements and more stringent obligation, and expenditure requirements on grant recipients
beyond those applicable to the regular Public Housing Capital Fund program grants.

During the period of our audit, the Authority received more than $10.8 million in Recovery Act
Capital Fund Recovery Competition grant funds from the U.S. Department of Housing and
Urban Development. The Authority received $10 million of these funds for the Echo Ridge
mixed-finance project consisting of 64 public housing units. In addition, it received $833,000
for the Tennessee Town II mixed-finance project, consisting of 16 housing units for elderly or
disabled persons. Also, the Authority received more than $1.2 million in Recovery Act formula
grant funds.

In administering its Federal grants, the Authority must follow Federal regulations including those
in the Code of Federal Regulations, Office of Management and Budget circulars, HUD
handbooks, public and Indian housing notices, and the Authority’s policies and procedures.

The objective of our review was to determine whether the Authority

      Expended Recovery Act grant funds in accordance with Recovery Act requirements and
       applicable HUD rules,
      Met procurement requirements in selecting the developers for its mixed-finance projects,
       and
      Reported Recovery Act grant information in Recovery.gov accurately and completely.




                                                 4
                                RESULTS OF AUDIT

Finding 1: The Authority Did Not Adequately Document Its Selection
of the Tennessee Town II Developer
The Authority did not adequately document its selection of the Tennessee Town II developer.
This occurred because the Authority lacked procurement training and did not have detailed
controls over its procurement process. As a result, it may have limited competition and spent
more Recovery Act funds for its developer than required.



 The Authority Did Not
 Document Its Selection of the
 Developer

              The Authority did not adequately document its selection of the Tennessee Town II
              developer. Regulations at 24 CFR (Code of Federal Regulations) 85.36 (b)(9) state
              that grantees and subgrantees must maintain records sufficient to detail the
              significant history of a procurement. Also, 24 CFR 85.36(c) states that all
              procurement transactions must be conducted in a manner providing full and open
              competition. HUD Handbook 7460.8, REV-2, paragraph 3.3, further states that
              supporting documentation must be in writing and placed into the procurement file.

              The Tennessee Town II development agreement was signed on October 15, 2008,
              between the Authority and a developer. We asked the Authority about its
              procurement process used in selecting this developer. The Authority stated that it
              initially conferred with other public housing experts and identified two possible
              developers that may have been interested in the Tennessee Town II project. The
              Authority then interviewed the two developers to determine their qualifications.
              After interviewing the developers, the Authority made its selection.

              We asked the Authority if it had written documentation, but it was unable to produce
              supporting documentation outlining its selection criteria or the specific reasons why
              this developer was selected. This developer selection process differed from the
              process used for the Echo Ridge mixed-finance project. The Authority documented
              the request for qualification process used to select the Echo Ridge developer, and
              there were three potential developers that applied for the developer position.


 The Authority Lacked
 Procurement Training and
 Detailed Controls


                                                5
           The Authority lacked procurement training and did not have detailed controls
           over its procurement process. Although the Authority’s executive director and
           deputy director were responsible for selecting the Tennessee Town II developer,
           they had not received procurement training. As a result, the Authority did not
           sufficiently understand HUD’s requirement to properly document its procurement
           process.

           In addition, the Authority did not have detailed controls over its procurement
           process to help ensure that staff followed proper procurement policies and
           procedures. We asked the Authority if it had any type of procurement checklist
           and if so, whether this checklist would have helped it to properly document its
           procurement process. The Authority stated that it did not have a checklist but that
           a checklist would have reminded it to document the procurement.

The Authority May Have
Limited Its Competition

           Although the Authority believed its selection of the Tennessee Town II developer
           was justified, this may not have been the case. As a result of the Authority’s actions,
           it may have limited competition and spent more Recovery Act funds for its
           developer than required.


Recommendations



           We recommend that the Director of the HUD Kansas City Office of Public
           Housing

           1A. Ensure that Authority staff receives procurement training.
           1B. Ensure that the Authority develops and implements detailed operational
               procedures to strengthen existing procurement policies.




                                              6
Finding 2: The Authority Did Not Accurately or Completely Report
            Recovery Act Grant Information in FederalReporting.gov

The Authority did not accurately or completely report its Recovery Act grant information in
FederalReporting.gov. This occurred because the Authority’s staff did not receive adequate
training. As a result, the public did not have access to accurate and complete grant information.



 The Authority Did Not
 Accurately or Completely
 Report Required Information


               The Authority generally obligated and expended Recovery Act grant funds in
               accordance with Recovery Act requirements, but it did not accurately or
               completely report its Recovery Act grant information in FederalReporting.gov.
               According to the Recovery Act requirements (2 CFR Part 176) and Office of
               Management and Budget guidance, Recovery Act grant recipients are required to
               report the following information in FederalReporting.gov:

                     Amount of the Recovery Act grant award,
                     Project information for use of the grant funds,
                     Number of jobs created or retained with the Recovery Act grant,
                     Funds invoiced,
                     Funds received,
                     Expenditure amounts,
                     Listing of vendors receiving Recovery Act funds, and
                     Vendor transactions.

               The Authority did not accurately or completely report in FederalReporting.gov
               the number of jobs created or retained using its Capital Fund Recovery
               Competition grant funds. For the Echo Ridge competitive grant, the Authority
               inaccurately or incompletely reported this information for four quarters. For the
               Tennessee Town II competitive grant, the Authority inaccurately reported this
               information for three quarters.




                                                7
  Period    Competitive        Jobs created or      Actual jobs Reporting
                grant        retained reported in    created or differences
               project      FederalReporting.gov      retained
10/1/2010- Echo Ridge                  5               14.50          (9.50)
12/31/2010
              Tennessee                5                1.07           3.93
               Town II
 1/1/2011- Echo Ridge                  5               25.44         (20.44)
 3/31/2011
              Tennessee                5                2.31           2.69
               Town II
 4/1/2011- Echo Ridge               40.30              40.39           (.09)
 6/30/2011
              Tennessee               .22                .19            .03
               Town II
 7/1/2011- Echo Ridge            Incomplete*        Incomplete* Incomplete*
 9/30/2011
              Tennessee             N/A**              N/A**         N/A**
               Town II
( ) Underreported
* The Authority was still receiving and computing payroll information.
** The project was completed during the second quarter of 2011.

Also, the Authority did not accurately report its expenditures in
FederalReporting.gov. For the Echo Ridge competitive grant, the Authority
inaccurately or incompletely reported this information for four of the five
quarters. For the Tennessee Town II competitive grant, the Authority
inaccurately reported this information for two of the three quarters.

  Period     Competitive    Expenditures         Actual    Reporting
                grant         reported in     expenditures differences
               project   FederalReporting.gov
 7/1/2010-   Echo Ridge         $9,464          $188,229   ($178,765)
 9/30/2010
10/1/2010-    Echo Ridge            $1,449,156         $1,578,311     ($129,155)
12/31/2010
              Tennessee             $283,683            $283,726        ($43)
               Town II
1/1/2011-     Echo Ridge            $3,908,109         $3,908,109         $0
3/31/2011
              Tennessee             $758,131            $758,131          $0
               Town II

4/1/2011-     Echo Ridge            $7,378,533         $6,828,178     $550,355
6/30/2011
              Tennessee             $833,931            $758,131       $75,800
               Town II



                                8
            7/1/2011-      Echo Ridge            $9,760,118          $9,502,554      $257,564
            9/30/2011
                          Tennessee            N/A*                N/A*                N/A*
                           Town II
           ( ) Underreported
           * The project was completed during the second quarter of 2011.

           Finally, the Authority did not report the required Recovery Act vendor
           information in FederalReporting.gov for any of its vendor payments in excess of
           $25,000 for both the Echo Ridge and Tennessee Town II competitive grants.

The Authority Did Not Receive
Adequate Training

           The Authority’s staff did not receive adequate training. According to the
           executive director, the staff member initially responsible for entering the data into
           FederalReporting.gov did not receive training. Later, these duties were given to
           another staff member, who was given only limited on-the-job training by the
           untrained staff member.

The Public Did Not Have
Access to Accurate Grant
Information

           The public did not have access to accurate grant information. As a result, the
           Authority’s use of Recovery Act competitive grant funds was not transparent.


Recommendation


           Since the Authority had nearly completed its Recovery Act reporting requirements,
           we did not provide recommendations related to the cause of this finding. However,
           we recommend that the Director of the HUD Kansas City Office of Public
           Housing work with the Authority to

           2A. Update its Recovery Act Web site, as appropriate, to reflect the correct program
               information.




                                             9
                        SCOPE AND METHODOLOGY

Our review period covered January 1, 2009, through September 30, 2011. We expanded the
scope to review the Tennessee Town II development agreement, which the Authority signed on
October 15, 2008. We performed our onsite work from October 2011 through January 2012 at
the Authority’s office located at 2010 Southeast California Avenue, Topeka, KS.

To accomplish our objectives, we

      Interviewed the Authority’s staff and its mixed-finance project developers.
      Interviewed HUD’s Office of Public and Indian Housing staff in Washington, DC, and
       Kansas City, KS.
      Reviewed the Authority’s Recovery Act procurement policies, procurement and
       contracting files, financial records, and supporting documentation.
      Reviewed Federal regulations, the Recovery Act, and HUD requirements.

HUD awarded the Authority more than $1.2 million in Recovery Act formula grant funds and
more than $10.8 million in Capital Fund Recovery Competition grant funds for a total of more
than $12.1 million. We reviewed the Capital Fund Recovery Competition grants. One of the
grants (Echo Ridge) was for $10 million, and the other (Tennessee Town II) was for $833,931.
The Authority entered into an agreement with a developer for each project. We reviewed the
Authority’s procurement process for selecting each developer.

To determine whether the Authority properly entered Recovery Act information into
FederalReporting.gov, we examined HUD’s Line of Credit Control System (LOCCS) data,
payroll records, invoices, and accounting records. We then compared the information to that
reported in FederalReporting.gov.

To determine whether the Authority properly obligated and expended its Recovery Act capital
funds in accordance with Recovery Act rules and regulations, we reviewed both Capital Fund
Recovery Competition grants. For the obligations, we selected both Capital Fund Recovery
Competition grants and all four grant obligation transactions to review. The four obligation
transactions represented 100 percent of the two grants and totaled more than $10.8 million.

For the expenditures, we selected a total of seven expenditures from the two Capital Fund
Recovery Competition grants. We selected the highest amounts due to the likelihood of
misstatements or the potential for high risk. For the first grant (Echo Ridge), we selected the
three construction expenditures with amounts higher than $1.1 million. For the second grant
(Tennessee Town II), we selected the two construction expenditures with amounts higher than
$150,000. In addition, each grant had one administrative fee expenditure, which we selected for
review. Overall, our sample of seven expenditures represented approximately 22 percent of the
32 expenditures in our universe. The seven expenditures in our sample totaled more than $4.7
million, or approximately 44 percent of the total expenditures of more than $10.5 million.



                                              10
We used LOCCS as support to help meet our audit objectives. To verify the reliability of the
LOCCS data, we first looked at when the LOCCS draws were disbursed to the Authority. Next,
we reviewed the Authority’s bank statements to ensure that the LOCCS disbursements had been
deposited. Finally, we looked at the Echo Ridge Limited Liability Company (LLC) and
Tennessee Town II LLC bank statements to verify when the LOCCS payments were deposited
from the Authority to the Echo Ridge and Tennessee Town II LLCs’ bank accounts. Overall, we
determined that the LOCCS data were sufficiently reliable for the purposes of this audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over properly reporting Recovery Act information
                     Controls in properly selecting developers

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                     The Authority did not have effective training and controls in place for
                      selecting developers (finding 1).




                                                 12
   The Authority did not provide training to staff responsible for entering data
    into FederalReporting.gov (finding 2).




                              13
